TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         The Small Business/Self-Employed
                          Division Is Beginning to Address
                         Challenges That Affect Corporate
                           Return Examination Coverage



                                           August 2005

                              Reference Number: 2005-30-130




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Luis.Garcia@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  August 22, 2005


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION



 FROM:                          Pamela J. Gardiner
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – The Small Business/Self-Employed Division Is
                                Beginning to Address Challenges That Affect Corporate Return
                                Examination Coverage (Audit # 200430030)

 This report presents the results of our review of statistical information that reflects Examination
 function activities in the Small Business/Self Employed (SB/SE) Division. The overall objective
 of this review was to analyze statistical data on closed small corporation and S corporation1
 return examinations for Fiscal Years (FY) 2001 through 2004 in the SB/SE Division to identify
 and report trends.

 Synopsis
 The Internal Revenue Service (IRS) views the examination of income tax returns as an important
 tool to encourage voluntary compliance. One measure of the IRS’ overall Examination program
 is the “examination coverage rate,” commonly known as the “audit rate,” which is computed by
 dividing the number of tax returns examined by the total number of tax returns filed in the
 previous calendar year.2
 In summary, the number of small corporation and S corporation returns examined from
 FY 2001 to FY 2004 decreased, but recent Examination program initiatives may reverse this

 1
   S corporations are corporations that elect to pass corporate income and losses to their shareholders for Federal tax
 purposes.
 2
   Management Advisory Report: The Internal Revenue Service’s Response to the Falling Level of Income Tax
 Examinations and Its Potential Impact on Voluntary Compliance (Reference Number 2002-30-092, dated
 June 2002).
                       The Small Business/Self-Employed Division Is Beginning
                            to Address Challenges That Affect Corporate
                                   Return Examination Coverage


trend. Specifically, in Calendar Year 2003, small corporations filed approximately
2.3 million U.S. Corporation Income Tax Returns (Form 1120) and S corporations filed
approximately 3.4 million U.S Income Tax Returns for an S Corporation (Form 1120S) with the
IRS. The audit rate for small corporations was .32 percent and for S corporations was
.19 percent in FY 2004.3 The IRS Commissioner has commented on the decreased examination
coverage in this area and that he expected audits to increase in 2005.
This audit focused on examinations of small corporations and S corporations with less than
$10 million in assets closed by the SB/SE Division during FYs 2001 through 2004. Our analysis
showed the number of small corporation and S corporation examinations significantly declined
during this period, from 19,339 to 7,328 (approximately 62 percent). Moreover, acute declines
in the number of examinations closed occurred from FY 2003 to FY 2004 when workload shifts
caused a decreased emphasis on small corporation and S corporation examinations. The number
of small corporation examinations decreased by 46 percent, while the number of S corporation
examinations decreased by 57 percent. The decline in the number of FY 2004 small corporation
examinations closed resulted in a 23 percent decrease in dollars recommended4 from FY 2003
($188 million) to FY 2004 ($145 million). Conversely, the average recommended assessment
dollars per return for small corporations showed a positive trend, going from approximately
$23,500 in FY 2003 to approximately $33,370 in FY 2004.
However, approximately 43 percent of small corporation returns examined had no change to the
tax reported on their returns for FYs 2001 through 2004. The IRS segregates these “no-change”
returns into those with adjustments and those without adjustments. For FYs 2001 through 2004,
approximately 30 percent of the no-change returns had adjustments. During this same period,
approximately 366 Direct Compliance Years5 were charged to small corporation returns with no
changes. For S corporations, 42 percent of the returns examined resulted in no changes; these
examinations accounted for 286 Direct Compliance Years during FYs 2001 to 2004. During
discussions with IRS management, the IRS commented on the value of return examinations
closed with adjustments but no change to the tax reported. For small corporations, such
examinations may include noncompliant taxpayers but due to offsets, such as net operating
losses or credit carryovers, no additional tax is due in the year under examination. For
S corporations, a no-change examination could result in an adjustment on other related returns,
such as the shareholder’s individual return.
Case selection systems, such as the Discriminant Index Function (DIF),6 do not meet current
Examination program needs. The DIF formulas used to score returns have not been updated

3
  The audit rates from the FY 2004 IRS Data Book include both Forms 1120 and 1120S examined by the SB/SE and
Large and Mid-Size Business Divisions. The audit rates include training returns and returns examined by
correspondence.
4
  Dollars recommended represents the amount of additional tax proposed to be assessed against the taxpayer.
5
  Based on a Direct Compliance Year composed of 2,000 hours of Direct Examination Time.
6
  The DIF is a mathematical technique used to classify income tax returns as to Examination program potential.
                                                                                                             2
                     The Small Business/Self-Employed Division Is Beginning
                          to Address Challenges That Affect Corporate
                                 Return Examination Coverage


since the 1980s and do not identify current IRS key compliance strategy cases such as abusive
schemes, unreported income, and structured transactions. The focus for the FY 2004
Examination program was on key strategies the DIF could not address; therefore, examinations
of small corporation and S corporation returns that were not a part of the strategies were not a
priority. In FY 2004, the SB/SE Division selected 22 percent of small corporation returns using
the DIF; the other 78 percent were selected from non-DIF sources.
The SB/SE Division recognizes the need to improve the selection of tax returns for examination
and has initiatives underway, such as the Compliance Initiative Projects (CIP) that focus on
identifying potential areas of noncompliance and developing strategies to improve compliance.
Some CIP-identified returns entered the audit stream in October 2004, and examination results
are pending. The SB/SE Division has also taken steps to address its longstanding human capital
crisis by authorizing the hiring of 984 revenue agents in FY 2005. However, the full
contribution of these new hires on helping reverse the decline in small corporation examinations
will not be realized for several years. Also, the burden on existing staff in providing training and
guidance to the new staff may further hamper productivity.
Overall, during this audit, there was insufficient evidence to evaluate whether recent
management actions will be effective in reversing the decline in the number of examinations, but
we will continue to monitor their implementation and resulting effects.

Response
We made no recommendations in this report. However, key IRS management officials reviewed
it prior to issuance.
Copies of this report are also being sent to the IRS managers affected by the report findings.
Please contact me at (202) 622-6510 if you have questions or Curtis Hagan, Assistant Inspector
General for Audit (Small Business and Corporate Programs), at (202) 622-3837.




                                                                                                   3
                            The Small Business/Self-Employed Division Is Beginning
                                 to Address Challenges That Affect Corporate
                                        Return Examination Coverage




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Small Corporation and S Corporation Return Examinations Have Declined
          Significantly Since Fiscal Year 2001............................................................Page 3
          Examinations Recommending No Changes Remain Constant.....................Page 6
          Initiatives Are Underway to Address Return Selection
          and Increase Resources for Examinations ....................................................Page 8

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Detailed Charts of Statistical Information ...........................Page 15
                         The Small Business/Self-Employed Division Is Beginning
                              to Address Challenges That Affect Corporate
                                     Return Examination Coverage




                                              Background

The Internal Revenue Service (IRS) views the examination of income tax returns as an important
tool to encourage voluntary compliance. One measure of the IRS’ overall Examination program
is the “examination coverage rate.” Commonly known as the “audit rate,” it is computed by
dividing the number of tax returns examined by the total number of tax returns filed in the
previous calendar year.1
An April 2004 article from The Wall Street Journal, “IRS Audits of Corporations Continued to
Decline in 2003,” reported, “IRS audits of corporations continue to drop, despite a recent turn
around in enforcement against individual taxpayers, said a report by Transactional Records
Access Clearinghouse, a government watchdog group. Overall, face-to-face audits of all
corporations declined to 7% in 2003 from 15% in 1999.”2
In Calendar Year 2003, small corporations filed approximately 2.3 million U.S. Corporation
Income Tax Returns (Form 1120) and S corporations filed approximately
3.4 million U.S. Income Tax Returns for an S Corporation (Form 1120S)3 with the IRS. The
audit rate for small corporations was .32 percent in Fiscal Year (FY) 2004 compared to
.60 percent in FY 2001. For S corporations, the audit rate was .19 percent in FY 2004 compared
to .43 percent in FY 2001.4 The IRS Commissioner has commented on the decreased
examination coverage in this area and that he expected audits to increase in 2005.
The IRS Small Business/Self-Employed (SB/SE) Division serves about 7 million small
businesses, including corporations, S corporations, and partnerships with less than $10 million in
assets. This audit focused on examinations of small corporations and S corporations closed by
the SB/SE Division during FYs 2001 through 2004.
Small business compliance is important to tax administration. Approximately 68 percent
($141 billion) of the estimated $207 billion tax gap in 1998 was attributed to SB/SE Division
taxpayers. Sole proprietors accounted for about $132.5 billion of this gap, and corporate
taxpayers were responsible for $8.3 billion. These tax gap estimates were updated in 2005 to

1
  Management Advisory Report: The Internal Revenue Service’s Response to the Falling Level of Income Tax
Examinations and Its Potential Impact on Voluntary Compliance (Reference Number 2002-30-092, dated
June 2002).
2
  Mckinnon, John D. 2004. “IRS Audits of Corporations Continued to Decline in 2003.” The Wall Street Journal.
April 12.
3
  S corporations are corporations that elect to pass corporate income and losses to their shareholders for Federal tax
purposes.
4
  The audit rates from the FY 2004 IRS Data Book include both Forms 1120 and 1120S examined by the Small
Business/Self-Employed and Large and Mid-Size Business Divisions. The audit rates include training returns and
returns examined by correspondence.

                                                                                                              Page 1
                        The Small Business/Self-Employed Division Is Beginning
                             to Address Challenges That Affect Corporate
                                    Return Examination Coverage



between $312 and $353 billion, and the FY 2004 - 2005 Compliance Risk Assessment5 revealed
that those areas of noncompliance associated with the tax gap (i.e., nonfiling, nonpayment, and
underreporting) continue to widen.
This review was performed at the SB/SE Division Headquarters Office in
New Carrollton, Maryland, in the Office of Examination Planning and Delivery during the
period September 2004 through June 2005. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




5
  Compliance Risk Assessments are part of the IRS’ overall strategic assessment; each operating division was
required to prepare an analysis and assessment of the compliance risk for each taxpayer segment.

                                                                                                          Page 2
                        The Small Business/Self-Employed Division Is Beginning
                             to Address Challenges That Affect Corporate
                                    Return Examination Coverage




                                     Results of Review

Small Corporation and S Corporation Return Examinations Have
Declined Significantly Since Fiscal Year 2001

The mission of the IRS is to provide America’s taxpayers top-quality service by helping them
understand and meet their tax responsibilities and by applying the tax law with integrity and
fairness to all. A December 2003 article on AccountingWEB.com stated, “While the nation’s
1,300 largest corporations face constant IRS scrutiny, the 148,000 mid-size companies are
audited only about once every 20 years.” The IRS Commissioner replied, “That’s atrocious.”6
In May 2003 testimony to the Congress, the Government Accountability Office (GAO) stated,
“Taxpayers’ willingness to voluntarily comply with the tax laws depends in part on their
confidence that their friends, neighbors, and business competitors are paying their fair share of
taxes. The IRS’s compliance programs, including audits and other efforts, are viewed by many
as critical to maintaining the public’s confidence in our tax system.”7
Analyses of IRS examination data8 from FYs 2001 through 2004 showed a sharp decline in the
number of small corporation and S corporation returns examined and closed by the SB/SE
Division. The number of Form 1120 and 1120S examinations closed decreased from 19,339 to
7,328 (approximately 62 percent) from FYs 2001 to 2004. Specifically, Form 1120
examinations decreased from 10,686 to 4,353 (approximately 59 percent) and Form 1120S
examinations decreased from 8,653 to 2,975 (approximately 66 percent). Moreover, acute
declines in the numbers of examinations closed occurred from FY 2003 to FY 2004. The
number of Form 1120 examinations closed dropped from 7,996 to 4,353 (approximately
46 percent), while the number of Form 1120S examinations closed dropped from 6,884 to
2,975 (approximately 57 percent).
Figure 1 shows the decline in Forms 1120 and 1120S examined from FYs 2001 through 2004 by
the SB/SE Division.



6
  “IRS Simplifying Business Tax Audits.” AccountingWEB.com. December 30, 2003.
7
  Compliance and Collection: Challenges for IRS in Reversing Trends and Implementing New Initiatives
(GAO-03-732T, dated May 7, 2003).
8
  We analyzed data from the IRS Audit Information Management System (AIMS). The AIMS is a computer system
used to control returns, input assessments/adjustments to the Master File, and provide management reports. The
Master File is the IRS database that stores various types of taxpayer account information. This database includes
individual, business, and employee plans and exempt organization data.

                                                                                                        Page 3
                           The Small Business/Self-Employed Division Is Beginning
                                to Address Challenges That Affect Corporate
                                       Return Examination Coverage



          Figure 1: Forms 1120 and 1120S Examined – Assets Under $10 Million




             Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of AIMS data for
             FYs 2001 - 2004.

The decline in the number of returns examined resulted in a corresponding decrease in dollars
recommended.9 Figure 2 shows that the decline in the number of FY 2004 Form 1120
examinations closed resulted in a 23 percent decrease in dollars recommended from FY 2003
($188 million) to FY 2004 ($145 million).

                           Figure 2: Dollars Recommended – Forms 1120




             Source: TIGTA analysis of AIMS data for FYs 2001 - 2004.


9
    Dollars recommended represents the amount of additional tax proposed to be assessed against the taxpayer.

                                                                                                            Page 4
                            The Small Business/Self-Employed Division Is Beginning
                                 to Address Challenges That Affect Corporate
                                        Return Examination Coverage



Although there was a significant decrease in the total dollars recommended from FY 2003 to
FY 2004, the average dollars per return for Forms 1120 actually increased. Figure 3 shows the
average dollars per return increased from $23,512 in FY 2003 to $33,377 in FY 2004.


                         Figure 3: Average Dollars Per Return – Forms 1120




              Source: TIGTA analysis of AIMS data for FYs 2001 - 2004.

Most of the SB/SE Division examinations in FY 2004 were based on key strategies rather than
on selection methods, such as the Discriminant Index Function (DIF)10 or activity code.11
According to the SB/SE Division, the compliance strategic initiatives, workload priorities, and
major operational priorities for FY 2004 were:
       •    National Research Program.
       •    Offshore Schemes (Credit Card Project and Non-Credit Card Schemes).
       •    Abusive Tax Avoidance Transactions and Promoters.
       •    High-Income Taxpayers.
       •    High-Income Non-filers.
       •    Unreported Income.
       •    Anti-Money Laundering.


10
     The DIF is a mathematical technique used to classify income tax returns as to Examination program potential.
11
     An activity code is a three-digit numeric code that identifies the type and condition of a return selected for audit.

                                                                                                                  Page 5
                        The Small Business/Self-Employed Division Is Beginning
                             to Address Challenges That Affect Corporate
                                    Return Examination Coverage



     •   Fraud.
     •   Other Priorities (Addressed in the Annual Compliance Program Letter).
The above initiatives exclude many small corporation and S corporation returns from the
examination process. Focusing the majority of resources on the initiatives leaves an entire
segment of taxpayers out of the IRS enforcement program. In a December 30, 2003, article from
AccountingWEB.com,12 IRS officials concede that their agency is simply not a factor for
businesses in deciding whether to follow the Internal Revenue Code.
In a previously issued report,13 we determined the number of examinations of small corporation
returns in FY 2003 continued the decrease that started in FY 1997. The IRS attributed the
decrease in part to a reallocation of resources. More recently, on January 5, 2005, the IRS
Commissioner pointed to some increases in enforcement statistics but noted that one compliance
area to keep an eye on might be small businesses, companies with less than $10 million in assets.
Despite the overall gains in corporate return examination coverage, the audit rate for small
businesses fell from .58 percent in 2003 to .32 percent (a 45 percent decrease) in 2004. The
IRS Commissioner attributed the 2004 decrease to many factors, including diverting resources to
enforcement of compliance of wealthy taxpayers and to investigations of abusive tax shelters.14
The SB/SE Division faced a number of challenges and changes during our audit period. Several
factors resulted in a decline in the numbers of small corporation and S corporation returns
examined and examinations closed, including major organizational realignments, budgetary
constraints, and increased customer service and reengineering efforts. Additionally, workload
shifts to examinations of abusive tax schemes, flow-through entities, off-shore trusts, and
high-income taxpayers caused a decreased emphasis on corporations with less than
$10 million in assets.


Examinations Recommending No Changes Remain Constant

The IRS examines income tax returns to determine whether corporations and other taxpayers
have voluntarily complied with tax laws and reported the proper amount of tax. To use its
resources efficiently, the SB/SE Division attempts to identify and examine returns with the
greatest likelihood of noncompliance. Examinations that result in no change to the tax reported
deplete limited resources and burden compliant taxpayers who voluntarily reported the correct
amount of tax.



12
   “IRS Simplifying Business Tax Audits.” AccountingWEB.com. December 30, 2003.
13
   Trends in Compliance Activities Through Fiscal Year 2003 (Reference Number 2004-30-083, dated April 2004).
14
   Everson Evaluates State of IRS, Pledges Strong Agenda for 2005 (Tax Notes Statement, dated January 5, 2005).

                                                                                                        Page 6
                        The Small Business/Self-Employed Division Is Beginning
                             to Address Challenges That Affect Corporate
                                    Return Examination Coverage



IRS return selection processes have not been effective in decreasing the number of examinations
that result in no change to the tax reported. During FYs 2001 through 2004, approximately
43 percent of small corporation returns examined resulted in no change to the tax reported.
Returns examined and closed with no change to the tax reported are referred to as
“no-change” returns.
The IRS further segregates no-change returns into two categories: (1) returns for which the IRS
recommends an adjustment to the taxpayer’s return but ultimately the tax reported does not
change and (2) returns for which there were no adjustments to the return and the IRS accepts the
return as originally filed by the taxpayer. Figure 4 shows that the overall percentage of
no-change returns for Forms 1120 has slightly decreased from FYs 2001 through 2004 but still
remains over 40 percent. The table also shows that of the total number of no-change returns
examined (14,468), approximately 30 percent (4,279) resulted in adjustments to taxpayers’
returns, but with no change in the tax reported.


                      Figure 4: No-Change Returns for FYs 2001 – 2004

                                    FY 2001        FY 2002         FY 2003        FY 2004        TOTALS

      Returns15 Examined          10,686          11,005         7,996          4,353          34,040

      No-change Code 0116         1,365           1,186          1,090          638            4,279

      No-change Code 0217         3,302           3,443          2,266          1,178          10,189

      % of No-change Code 01      12.77           10.78          13.63          14.66          12.57

      % of No-change Code 02      30.90           31.29          28.34          27.06          29.93

      %Total No-change            43.67           42.06          41.97          41.72          42.50
      Codes 01 & 02

     Source: TIGTA analysis of AIMS data for FYs 2001 - 2004.

For Forms 1120S, approximately 42 percent of returns examined were no-change returns for
FYs 2001 through 2004. Of the total number of Form 1120S returns examined and categorized
as no-change returns (11,529), approximately 11 percent (1,317) were no-change returns with
adjustments. During this same period, approximately 36618 (36 percent) of the total Direct


15
   Our populations include all Forms 1120 for small corporations (those with assets of less than $10 million)
examined by revenue agents in the SB/SE Division. Training returns are not included in the populations.
16
   Code 01 identifies returns with an adjustment but no change in tax reported.
17
   Code 02 identifies returns with no adjustments and no change in tax reported.
18
   The 366 includes no-change returns with adjustments (99) and no-change returns without adjustments (267).

                                                                                                          Page 7
                         The Small Business/Self-Employed Division Is Beginning
                              to Address Challenges That Affect Corporate
                                     Return Examination Coverage



Compliance Years19 (1,018) applied to Form 1120 examinations were charged to
no-change returns. Approximately 28620 (38 percent) of the total Direct Compliance Years (759)
applied to Form 1120S examinations were expended on no-change returns.
During discussions with IRS management concerning the issues in this report, the IRS
commented that small corporation examinations closed as no-change with adjustments may
include noncompliant taxpayers. However, offsets such as net operating losses or credit
carryovers may result in no additional tax in the year under examination. In addition, IRS
management also stated that no-change examinations of an S corporation return could result in
an adjustment on other related returns, such as the shareholder’s individual return, since the
Form 1120S is a pass through return. Therefore, the no-change with adjustment examinations do
differ from complete no-change examinations.
We agree that no-change with adjustment cases do have value. However, the number of
no-change returns is one indicator the SB/SE Division examination workload identification and
selection systems and processes are not adequately identifying tax returns with the greatest yield
potential. One challenge of new workload identification and selection techniques is developing
sufficient, up-to-date technical expertise.21 Without improved identification and selection, the
SB/SE Division runs the risk of expending excessive resources on less egregious noncompliant
taxpayers and negatively affecting customer service with unnecessary taxpayer contacts.
Our review and analysis of a judgmental sample of 24 small corporation return examinations
closed with no changes to the tax reported in FY 2004 determined that, overall, the
24 examination files contained sufficient documentation to explain the total cycle days22 and
examiner time. The 24 sampled examinations each had total cycle days exceeding 900 and
examiner time below 50 hours. These examinations were reviewed to determine whether
documentation existed to support the decision to close the examinations with no changes to the
tax reported.


Initiatives Are Underway to Address Return Selection and Increase
Resources for Examinations

The IRS is concerned about declines in the examination coverage of small corporations and
S corporations and the productivity of tax returns selected for examination. The SB/SE Division
has initiatives underway to improve return selection and increase resources to examine returns.


19
   Based on a Direct Compliance Year composed of 2,000 hours of Direct Examination Time.
20
   The 286 includes no-change returns with adjustments (24) and no-change returns without adjustments (262).
21
   Small Business/Self-Employed Strategic Assessment Report for FY 2003 and 2004 (March 1, 2002, issued by the
IRS).
22
   Total cycle days are the number of days from when the return is filed until the examination process is completed.

                                                                                                            Page 8
                       The Small Business/Self-Employed Division Is Beginning
                            to Address Challenges That Affect Corporate
                                   Return Examination Coverage




The SB/SE Division uses Compliance Initiative Projects (CIP) to improve return
selection

The SB/SE Division recognizes the need to improve the selection of returns for examination
because case selection systems such as the DIF do not meet current needs. The DIF is based on
assumptions developed after completion of the 1988 Taxpayer Compliance Measurement
Program (TCMP)23 and has not been updated. The DIF was not designed to score tax returns
based on the IRS’ current key enforcement strategies, such as abusive schemes, unreported
income, and structured transactions. Since the focus of the FY 2004 Examination program was
on key strategies the DIF could not address, examinations of small corporation and S corporation
returns that were not a part of those strategies were not a priority.
In FY 2004, the SB/SE Division selected 22 percent of small corporation returns using the DIF;
the other 78 percent were selected from non-DIF sources. 24 While the DIF-selected returns
accounted for just 22 percent of the FY 2004 examinations, the DIF scoring system was
reasonably effective. Recommended dollars from the DIF-scored examinations were comparable
to those from non-DIF examinations. The DIF-selected returns contributed 32 percent of the
recommended dollars. Additionally, DIF-selected returns resulted in a lower number of
no-change returns.25
To assist in the return selection process, the IRS has implemented the use of CIPs to identify
returns with better audit potential than those currently being selected using the DIF. The CIPs
focus on identifying potential areas of noncompliance and developing strategies to improve
compliance. Some CIP-identified returns entered the audit stream in October 2004, and
examination results are pending.

Increased Examination program staffing should eventually help to increase the
examination coverage of small corporation and S corporation returns

The SB/SE Division, as well as the rest of the IRS, continues to face a human capital resource
crisis. From FYs 2001 through 2004, 853 SB/SE Division employees transferred to the Large
and Mid-Size Business (LMSB) Division. Furthermore, 25 percent of the SB/SE Division
revenue agents will be eligible for retirement by the end of FY 2005; 36 percent of the SB/SE
Division workforce will be eligible for retirement by the end of FY 2006.



23
   The TCMP used lengthy and detailed examinations to comprehensively measure taxpayer compliance and identify
potential tax law changes.
24
   See Appendix IV, Figure 1.
25
   See Appendix IV, Figure 2.

                                                                                                     Page 9
                          The Small Business/Self-Employed Division Is Beginning
                               to Address Challenges That Affect Corporate
                                      Return Examination Coverage



The following represents revenue agents that transferred from the SB/SE Division to the LMSB
Division according to IRS personnel data:
       •   FY 2001 – 379.
       •   FY 2002 – 81.
       •   FY 2003 – 119.
       •   FY 2004 – 274.
To reverse the decline in compliance resources, the SB/SE Division was authorized to hire
984 revenue agents in FY 2005 as part of its Curb Egregious Noncompliance initiative. This
initiative is one of the SB/SE Division’s major FY 2005 goals. Through this initiative, the
SB/SE Division seeks to reverse the continuing decline in compliance resources and to maintain
the public’s faith in the fairness of our nation’s tax system.
Although the IRS appears committed to increasing SB/SE Division compliance resources, it will
likely take several years to see the effect on increasing the number of small corporation and
S corporation return examinations. It is uncertain whether increased resources will guarantee a
solution to the declining examination coverage. Also, the burden on existing staff to provide
training26 and guidance to the new staff may further hamper productivity.

The IRS’ efforts are encouraging, but it is too soon to determine the impact on
small corporation and S corporation examinations

While we are encouraged by the IRS’ efforts to develop better return selection methods through
the CIPs and to increase enforcement staffing, it is unclear how effective management’s actions
will be in reversing the declining examination coverage trend and reducing the number of
examinations resulting in no changes to tax reported, especially in the near future. In our
opinion, the voluntary compliance of small corporations and S corporations may be negatively
affected with the continuing decline in the number of examinations.
Continued efforts to increase the examination coverage are important to the effectiveness of the
voluntary compliance system. During this audit, there was insufficient evidence to evaluate
whether recent management actions will be effective in reversing the decline in the number of
examinations. We plan to monitor their implementation and resulting effects in future TIGTA
audits. We have no specific recommendations to offer at this time.




26
     See Appendix IV, Figures 3 and 4.

                                                                                          Page 10
                          The Small Business/Self-Employed Division Is Beginning
                               to Address Challenges That Affect Corporate
                                      Return Examination Coverage



                                                                                                      Appendix I


          Detailed Objective, Scope, and Methodology

The overall objective of this review was to analyze statistical data on closed small corporation
and S corporation1 return examinations for Fiscal Years (FY) 2001 through 2004 in the Small
Business/Self-Employed (SB/SE) Division to identify and report trends. To meet our objective,
we relied on the Internal Revenue Service’s (IRS) internal management reports and databases.
We did only limited testing to establish the reliability of these data because extensive data
validation tests were outside the scope of the audit and would have required a significant amount
of time. To accomplish our objective, we:
I.       Reviewed the mission statements, centralized workload plans, and strategic planning
         initiatives of the SB/SE Division with respect to enforcement and examination coverage
         for the corporate Examination program.
         A. Determined the focus for the corporate Examination program and whether return
            closure is the program’s emphasis.
         B. Determined whether the SB/SE Division has a sufficient number of trained examiners
            to meet program goals and objectives.
II.      Analyzed data on the closed Audit Information Management System (AIMS)2 database to
         identify the numbers and types of small corporation and S corporation return
         examinations conducted for FYs 2001 through 2004. Analyses included determining the
         number of closed examinations for each period, average dollars per return, average hours
         per return, and average assessments by disposal code. We also analyzed the number of
         returns selected by source and activity code.3 Based on the analyses conducted in this
         test, we attempted to identify trends in the corporate Examination program.
         A. Determined what disposal codes count as a return closure.
         B. Evaluated the return closure disposal codes that resulted in no change to the tax
            reported. We determined the time open and the time charged to disposal codes that
            resulted in no change to the tax reported for examinations that were not completed.

1
  S corporations are corporations that elect to pass corporate income and losses to their shareholders for Federal tax
purposes. Small corporations file U.S. Corporation Income Tax Returns (Form 1120); S corporations file U.S
Income Tax Returns for an S Corporation (Form 1120S).
2
  The AIMS is a computer system used to control returns, input assessments/adjustments to the Master File, and
provide management reports. The Master File is the IRS database that stores various types of taxpayer account
information. This database includes individual, business, and employee plans and exempt organization data.
3
  An activity code is a three-digit numeric code that identifies the type and condition of a return selected for audit.

                                                                                                               Page 11
                         The Small Business/Self-Employed Division Is Beginning
                              to Address Challenges That Affect Corporate
                                     Return Examination Coverage



             1. Selected a judgmental sample of 304 cases for which total cycle days5 exceeded
                900 days and examiner time charges were below 50 hours. A judgmental sample
                was used due to time constraints. We reviewed the closed examination files to
                determine whether documentation existed to support no change to the tax
                reported. We selected this sample from a population of 4,353 small corporation
                returns examined and closed by the SB/SE Division in FY 2004 on the AIMS
                database. Of the 4,353 closed returns, there were 1,816 closed with no change to
                the tax reported.
III.     Based on identified trends, discussed plans to have the SB/SE Division corporate
         Discriminant Index Function (DIF)6 Examination program provide more balanced
         examination coverage.
         A. Interviewed management to determine plans for increasing examination coverage in
            the SB/SE Division corporate Examination program.
         B. Secured and reviewed plans, meeting minutes, and other documents that pertain to the
            future of the SB/SE Division corporate Examination program.
         C. Reviewed documents pertaining to the staffing changes and staff years specific to the
            SB/SE Division corporate Examination program for FYs 2001 through 2004.
         D. Assessed the resources allocated to the corporate Examination program.




4
  The sample size was adjusted to 24 because 6 returns were considered Large and Mid-Size Business Division
returns.
5
  Total cycle days are the number of days from when the return is filed until the examination process is completed.
6
  The DIF is a mathematical technique used to classify income tax returns as to Examination program potential.

                                                                                                            Page 12
                    The Small Business/Self-Employed Division Is Beginning
                         to Address Challenges That Affect Corporate
                                Return Examination Coverage



                                                                              Appendix II

                 Major Contributors to This Report

Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Richard J. Dagliolo, Director
Philip Shropshire, Director
Timothy F. Greiner, Acting Audit Manager
Michael A. Howard, Acting Audit manager
Cynthia Dozier, Lead Auditor
Lisa M. Stoy, Senior Auditor
Roy E. Thompson, Senior Auditor




                                                                                       Page 13
                   The Small Business/Self-Employed Division Is Beginning
                        to Address Challenges That Affect Corporate
                               Return Examination Coverage



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination SE:S:E
Director, Examination Planning and Delivery SE:S:E:EPD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                Page 14
                        The Small Business/Self-Employed Division Is Beginning
                             to Address Challenges That Affect Corporate
                                    Return Examination Coverage



                                                                                               Appendix IV

             Detailed Charts of Statistical Information

As shown in Figure 1, the sources of U.S. Corporation Income Tax Returns (Form 1120) selected
for examination have changed dramatically since Fiscal Year (FY) 2001, with fewer returns
selected from the Discriminant Index Function (DIF)1 scoring system being examined in recent
years.
                Figure 1: Sources of Small Corporation Returns Examined
                                   for FYs 2001 - 2004


                                      DIF and DIF-Related           Non-DIF

        90%
        80%

        70%
        60%
        50%

        40%
        30%
        20%
        10%
          0%
                      FY 2001                 FY 2002                 FY 2003                 FY 2004


Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of Audit Information Management
System (AIMS) 2 data.




1
  The DIF is a mathematical technique used to classify income tax returns as to Examination program potential.
2
  The AIMS is a computer system used to control returns, input assessments/adjustments to the Master File, and
provide management reports. The Master File is the IRS database that stores various types of taxpayer account
information. This database includes individual, business, and employee plans and exempt organization data.

                                                                                                          Page 15
                       The Small Business/Self-Employed Division Is Beginning
                            to Address Challenges That Affect Corporate
                                   Return Examination Coverage



As shown in Figure 2, overall, DIF-selected returns had fewer returns closed with no changes.

   Figure 2: Percentage of Returns Examined With No Change to Tax Reported,
                          Based on Source of Selection

                                             FY 2001    FY 2002    FY 2003      FY 2004
DIF and DIF-Related Returns:
        No changes, adjustment              7.03%      6.67%      8.65%       12.11%
        No changes, no adjustment          31.94%      31.82%     28.39%      13.71%
                 Total                     38.97%      38.49%     37.04%      25.82%
Non-DIF Returns:
        No changes, adjustment             18.96%      16.67%     20.38%      15.36%
        No changes, no adjustment          29.77%      30.53%     28.28%      30.74%
                 Total                     48.73%      47.20%     48.66%      46.10%

Source: TIGTA analysis of AIMS data for Forms 1120.




                                                                                          Page 16
                      The Small Business/Self-Employed Division Is Beginning
                           to Address Challenges That Affect Corporate
                                  Return Examination Coverage



As shown in Figure 3, the numbers of training returns examined (Forms 1120 and U.S. Income
Tax Returns for an S Corporation [Form1120S]) increased from 151 in FY 2001 to 2,459 in
FY 2004.


Figure 3: Changes in the Number of Training Return Examinations by Fiscal Year


               3000

               2500

               2000
     Returns




               1500

               1000

               500

                 0
                       FY 2001            FY 2002        FY 2003           FY 2004


   Source: TIGTA analysis of AIMS data.




                                                                                     Page 17
                      The Small Business/Self-Employed Division Is Beginning
                           to Address Challenges That Affect Corporate
                                  Return Examination Coverage



As shown in Figure 4, the numbers of examiner hours expended on training returns (Forms 1120
and 1120S) have increased sharply since FY 2001, as new revenue agents have been hired.


    Figure 4: Examination Program Resources Dedicated to Training Returns


            160,000
            140,000

            120,000
            100,000
    Hours




             80,000
             60,000

             40,000
             20,000
                 0
                        FY 2001          FY 2002         FY 2003           FY 2004


  Source: TIGTA analysis of AIMS data.




                                                                                     Page 18
